No.

To Be Assigned

In The SUPREME COURT OF THE UNITED STATES
CERTIFICATE OF FILING & SERVICE ACCOMPANIMENT: NOTARIZED
AFFIDAVIT
From FLORIDA STATE SUPREME COURT: November 14, 2018
After United States Supreme Court denied Writ of Certiorari & Petition For Rehearing
June 17, 2019
In re: R.c. “RICK” LUSSY aka CANDIDATE 2016 AND 2020-2024 ELECTIONS
Petitioner
______Petition: Extraordinary Writ Rule 20______
PETITION FOR WRIT OF MANDAMUS
THREE PART ORDER
WITH THREE HUNDRED FORTY FOUR EXTRAORDINARY CIRCUMSTANCES &
APPENDIX: AFFIDAVIT
The Supreme Court rules 20, 33.1 require I certify this final attached petition-affidavit:
Writ ofMandamus as government to form an order in the nature of public charge duty in
this case of existing statutory duty.
Petition for writ of Mandamus (Rule 20) contains

5.428

narrative words,

3.537 . footnote-words and this certification total word count: 8,965 is-less-than-the
9,000 word-limit Rule 33.l(g)(xiii). Rule 33.1(b), 12-point & 10-point footnote Century
Schoolbook font. Margin %” all sides, text field including footnotes not exceed 4 1/8” & 7
1/8”. Rule 33.1(d) word count exclude: table-of-contents, table-of-cited-authorities, table-ofauthorities-citations-of-official-unofficial-reports-opinions. The Florida State Supreme
Court November 14, 2018, and subsequent “No. 18-1216, petition for rehearing”alter Writ
1

received
JUL 26 2019

—S'

of Certiorari Petition postmark June 17, receipt June 21, 2019, next-appropriate-step
requires this Writ of Mandamus postmark on Sunday July 21, 2019, (30-days after) for a
Monday July 22, 2019 postmark. The Hialeah-Miami book binders’ honeymoon is
Thursday-to-Sunday requiring this July 22, 2019 postmark-for-U.S. Post delivery.
STATE OF FLORIDA
County of Collier
Richard (Rick) C. (Charles) Lussy petitioner duly sworn, deposes and states below:
l.)I am 68-years old, Florida State resident with personal knowledge of facts herein.

2.) I suffer no legal disability, other than reliance on this last remedy: Writ of Mandamus
of U.S. Supreme Court to enforce existing law to cross-examine all opposing sides.

3.)Pro se petitioner respectfully petitions’ for redress for elected-office-appointment. And
for the jury trial verdict process for damages ongoing with Missing 13th U.S. (1819)
Amendment after the August 30, 2016 (R) primary election-that occurred without (D) or
independent: no-party affiliation.

5.) I present this in good faith, as to best of my knowledge & belief: truth and correct.
Signature

__________ __

NOTARY PUBLIC SWORN & VERIFIED
SWORN To as truth & Subscribed before me this 18th day of Juhy, 2019, by Richard C.
Lussy,
who (__) is personally known to me or who CL) have produced his
Florida Drivers^License Class E, No. L200-743-50-269;0 a&identification: 860 Sixth Ave.
South P.O. Box 152, Naples Fla. 34106. E-mail: rickk^|Mvahoo.com, Ph 239-263-5413.
By
NoWfyyPubhe, State of Florida

(SEAL)

YHnpius rf/on

ANELY5 ELENA PIL0T0
Notary Public - State of Florida
Commission H GG 315461
My Comm. Expires Mar 24, 2023

Print, Name'of Notary Public
2

